                  PUBLIC
                 RELEASE


                    BUREAU OF THE CENSUS

                    2000 Decennial Census:
Address-Building Program May Become More
     Complex, Costly, and Counterproductive

             Audit Report No. ESD-9608-8-0001 / March 1998




     Office of Audits / Economics and Statistics Audits Division
March 31, 1998


MEMORANDUM FOR:               James F. Holmes
                              Acting Director
                              Bureau of the Census



FROM:                         Johnnie Frazier
                              Acting Inspector General

SUBJECT:                      Final Audit Report: 2000 Decennial Census Address-Building
                              Program May Become More Complex, Costly, and
                              Counterproductive
                              (ESD-9608-8-0001)

This is our final report on the Census 2000 Master Address File (MAF) building program. The
bureau generally agreed with our recommendations. Its written response was considered and,
where appropriate, is reflected in the final report. Our recommendations begin on page 9, and
our specific comments on the bureau’s response begin on page 10. The bureau’s comments are
attached as Appendix I.

As required by DAO 213-5, please provide us with an audit action plan within 60 days. Any
inquiries regarding this report should be directed to me, at (202) 482-4661, or to Charles
Tegeler, Director, Economics and Statistics Audits Division, at (301) 457-1986. We appreciate
the cooperation and courtesies extended to us during our review.

SUMMARY OF OBSERVATIONS

In 1997, the bureau’s Deputy Director initiated an assessment of the MAF-building program that
centered on partnerships with the U.S. Postal Service and 39,000 local governments. Finding
that this program was complex, risky, and could not provide an adequate final product, the
bureau assessment team concluded that a 1990-style, 100 percent field address check is essential.
Despite these conclusions and the associated need for an additional $108.7 million, the team
identified the percentage of local governments who participate in MAF building as a measure of
program success. We are concerned that this measure appears to be on equal footing with
measures that focus on quality. This apparent contradiction is troubling since evidence suggests
that, on balance, local lists add more error than they correct. Unless the emphasis on local
participation is focused on quality concerns, it will either further increase cost and complexity or
decrease MAF accuracy.
2000 Decennial Census Address-Building Program                                  Final Audit Report
May Become More Complex, Costly, and Counterproductive                                 March 1998


INTRODUCTION

The Census Bureau, in consultation with expert advisory panels, “reengineered” census-taking
methods to meet the challenges of accurately and cost-effectively counting an increasingly hard-
to-count population in 2000. An accurate census is crucial because the Constitution requires that
it be used to apportion seats in the House of Representatives. Additionally, census data are used
in support of a host of other important activities, including federal and state redistricting,
implementation and enforcement of the Voting Rights Act, and distribution of billions of dollars
of federal and state funds each year. Because of its centrality to decisions that last 10 years, the
bureau must address concerns about the census raised by federal, state, and local governments
and a myriad of advocacy groups whose constituents are affected by census results.

The 1990 census was long, expensive, and labor-intensive, a situation exacerbated by a lower-
than-expected public response to the questionnaire mailed to every housing unit on the bureau’s
national address list. The housing unit address list guides every aspect of census enumeration,
including mailing and keeping track of returned questionnaires and determining which housing
units need follow-up. Because of the low mail response in 1990, the bureau required additional
appropriations from the Congress during the census to complete the count. Despite the census’
higher cost, post-analysis concluded that its accuracy decreased.

In response to the 1990 decennial’s shortcomings, the Congress convened a panel of experts
from the National Academy of Sciences to provide advice on reforms for the 2000 census. In
1994, the panel concluded that the bureau should use statistical sampling and estimation as an
integral part of the 2000 census design and then rethink and reengineer the entire census process
and operations in light of that decision. Bureau officials agreed and incorporated sampling and
estimation and other improved methods into the design to contain cost, increase accuracy, and
save time.

In 1988, the bureau purchased commercial address lists, generally available only for
metropolitan areas, to begin its address-building process. Temporary field staff went door-to-
door nationwide in 1989 to develop a decennial Address Control File. Post-census analysis by
the bureau identified that the resulting address file was the source of millions of errors and was
therefore a good candidate for reengineering. Further, the address list was of particular interest
to many local officials, who believed that they could help to improve it. In October 1994, in
part to respond to local governments’ requests, the Congress passed Public Law 103-430,
requiring the bureau to allow local governments to review its address list before the 2000
decennial census.

In addition to this legal requirement, senior bureau managers have identified building
partnerships with local officials at every stage of the 2000 census process as an essential strategy
for achieving success. Bureau managers believe that local leaders can help plan and implement
an improved census. Therefore, bureau officials adopted and promoted an address-building
program centered on partnerships with the U.S. Postal Service and up to 39,000 local
governments to build and review the Census 2000 Master Address File before the census.


                                                 2
2000 Decennial Census Address-Building Program                                Final Audit Report
May Become More Complex, Costly, and Counterproductive                               March 1998


This program was to produce an improved list at a lower cost by assigning a unique geographic
code to city-style addresses based on the bureau’s Topologically Integrated Geographic
Encoding and Referencing (TIGER) system. TIGER is a machine-readable nationwide
geographic database. The bureau links the MAF to TIGER in order to identify the street
segment upon which a city-style address exists and thus determine the geographic codes that
locate the address. These addresses are merged from the Postal Service’s Delivery Sequence
File, 1990 Census lists, and local government lists submitted through the bureau’s Program for
Address List Supplementation (PALS). Rural address capture would still require temporary staff
to completely canvass areas that did not have city-style addresses, but had rural delivery routes
or post office boxes.

The address list that emerged from these activities would be sent to local governments for
review, and any needed corrections, in a second phase known as the Local Update of Census
Addresses (LUCA). In addition to meeting the legal requirement, the objectives of this second
local review were to obtain the most current information available, receive early acceptance
from local officials, and preclude challenges after the census. The bureau intended to limit its
verifications of postal and local government information to targeted field operations, such as a
search for hidden units and checks of the number of housing units in multi-unit structures.

Although the MAF-building program seemed sound in concept, when bureau staff began
implementing it, a number of difficulties emerged. The Postal Service’s and local governments’
address lists varied greatly in their ability to provide high-quality, up-to-date, and usable
datasets. Additionally, the bureau discovered that few local governments participated in the
address-building part of the program.

Acknowledging these concerns and a potential need for additional funding to address them, the
bureau’s Deputy Director initiated in July 1997 a comprehensive assessment of the MAF-
building process to examine problems and find solutions. The Deputy Director’s Business
Process Reengineering (BPR) effort involved not only cognizant bureau officials but also
representatives from local governments expecting to play a major role in Census 2000 address
building. The team’s charge was to be forward-looking, rather than to investigate deficiencies in
past activities. One question that prompted the BPR was how to increase local participation in
MAF building.

PURPOSE AND SCOPE OF AUDIT

The initial objective of our audit was to evaluate the status of the MAF-building and TIGER
programs and to identify any deficiencies that could adversely affect the 2000 decennial. Toward
the end of our field work, we discussed some of our preliminary observations with senior bureau
managers. We found that they shared some of our concerns about the MAF and that the Deputy
Director had initiated the BPR. Consequently, we extended our review until after the BPR to
determine if our concerns had been addressed and to determine if new concerns were emerging.

We focused on how the BPR’s conclusions and recommendations affect the census design’s cost,
schedule, performance, and public perception. To accomplish this objective, we reviewed test

                                                3
2000 Decennial Census Address-Building Program                                  Final Audit Report
May Become More Complex, Costly, and Counterproductive                                 March 1998


plans and evaluations, advisory panel documentation, decision memoranda, status reports, and
other internal and external documents concerning the MAF program.

We also analyzed relevant information on current and planned decennial activities and program
interrelationships as presented in the Decennial Master Activity Schedule (the primary project
management tool for the 2000 census) and the decennial cost model. More specifically, in
reviewing the schedule, we examined MAF-related activities and the adequacy of the linkages
among them. For the cost model, we reviewed the assumptions and the cost components for the
MAF-building program and compared this information to changes made as a result of the BPR.
We also interviewed bureau representatives at the Census Bureau’s offices in Suitland, Maryland.
We subsequently discussed the results of our audit with cognizant officials, including the bureau’s
Deputy Director and its Associate Director for Decennial Census.

We conducted our field work from June through September 1997. We did not examine the
bureau’s internal controls, nor did we rely on computer-generated data. The audit was conducted
in accordance with generally accepted government auditing standards, 1994 revision, and under
the authority of the Inspector General Act of 1978, as amended, and Department Organization
Order 10-13, as amended.1

EMPHASIZING LOCAL PARTICIPATION
PLACES MASTER ADDRESS FILE ACCURACY AT RISK

The objective of the recent BPR effort was to quickly design a system that would produce a
Census 2000 Master Address File that is “(1) complete and accurate and (2) reviewable and
reviewed.” The effort included a quality team and a partnership team. The quality team, as its
performance measure for “complete and accurate,” identified quality indicators comparable to
those used in the 1990 census. It recommended replacing plans for targeted field checks with a
1990-style 100 percent block canvass of city-style addresses, which it estimated would cost an
additional $95 million. The partnership team, as its performance measures for “reviewable and
reviewed,” identified the percentage of governmental entities to review addresses and the
percentage of total housing units in participating jurisdictions. It recommended a number of
actions, including conducting multiple rounds of local address list reviews and intensifying
bureau technical support.

After identifying deficiencies in local address files, the quality team concluded that using local
government data to improve city-style MAF coverage is not a reliable coverage improvement
method. In fact, accepting local information without verification may actually increase errors.
Conversely, verifying local information, ideally through exclusive use of the new 100 percent
field canvass, may increase program complexity and cost. Depending on the extent of local
participation and how local information will be verified, the estimated cost increase may not be


       1
        The OIG notes that audit team members accepted positions with the Census Bureau
following completion of the audit field work; however, the OIG has determined that the audit
was conducted and reported with full independence and impartiality.

                                                 4
2000 Decennial Census Address-Building Program                                 Final Audit Report
May Become More Complex, Costly, and Counterproductive                                March 1998


sufficient to fund multiple MAF reviews and increased bureau support to localities. The bureau
will likely be faced with a decision either to request even further funding increases or to accept
almost inevitable decreases in MAF accuracy.

Business Process Reengineering Comes Late in Process,
Recommending 100 Percent Canvass

We learned during our review that, in 1993, bureau officials embarked on the MAF-building
process without (1) addressing the crucial question of how complete and accurate the MAF
needs to be, and (2) the benefit of sufficient information about the quality or feasibility of
relying on the Postal Service and local government address lists. Before the BPR was initiated
by the current Deputy Director in 1997, bureau officials had not identified either quality criteria
for the MAF or indicators for ensuring that the criteria had been met. Also prior to the BPR,
they had not considered, in any detail, the relationship between the quality of the MAF and the
sampling and estimation applications planned for 2000. At first when we asked how complete or
accurate the MAF needs to be for Census 2000, officials answered our question by responding
that it should be as complete as possible.

At the same time, bureau officials were learning that the quality of a primary component of the
MAF--the Postal Service’s Delivery Sequence File--varied greatly by location, leading to
proposals for targeted field operations to compensate for problems in selected areas. Efforts to
assign geographic codes from the TIGER database to postal and 1990 census addresses--a
necessary precursor to using the addresses in the census--also required more effort than initially
expected. Further, during an extensive review of the schedule for completing the MAF, bureau
officials acknowledged that no plan was in place to measure the quality of the current MAF-
building process. In an additional complication, we discovered that bureau statisticians had not
identified MAF quality requirements to support their sampling and estimation designs. Bureau
officials began addressing these issues as part of the BPR.

Given few, if any, other options at this late date, the bureau’s BPR quality team used the quality
of the 1990 census address list as its criterion for MAF accuracy. The quality indicators
included measurements of housing units missed or duplicated. To determine the quality of the
current MAF-building process, the team analyzed all available operational data, which was
limited to nine sites--seven counties and two cities. The team concluded that the MAF quality
varies by area and is deficient in some areas for all quality indicators. For example, missed unit
rates for the nine sites ranged from 0.0 percent to 6.7 percent, and duplicate unit rates ranged
from 0.0 percent to 9.0 percent. These findings did not provide detailed predictors of housing
unit types or areas likely to be missed or duplicated on census, postal, or local address lists.
Furthermore, even if clear patterns were discovered, they could not be used in MAF building
because data from those sites are not generalizable.

None of the nine sites was randomly selected, and the sample sizes were small. The counties
were part of a survey still under development and were selected because they were expected to
be easy to enumerate. The cities were part of the 1995 Census Test and were selected in part
because they contained difficult-to-enumerate populations that had experienced high undercount

                                                 5
2000 Decennial Census Address-Building Program                                 Final Audit Report
May Become More Complex, Costly, and Counterproductive                                March 1998


rates in the 1990 decennial. Since the team could not use the limited available information to
reliably predict which city-style areas would require targeted additional checks and which would
not, it concluded that a 100 percent block canvassing operation--similar to 1990--was necessary
to ensure achieving stated accuracy goals.

Consequently, the quality team recommended that all city-style housing units be canvassed and
estimated the additional cost of such canvassing at $95 million. Senior bureau officials
subsequently submitted a supplemental budget request for a $108.7 million net increase in
funding that includes the $95 million for canvassing plus $13.7 million for other redesign
improvements. This estimate assumes that the funds originally planned for targeted field checks
would be reapplied toward the redesigned 100 percent canvass.

To prepare for the possibility that a 100 percent block canvassing operation might not be
implemented, the quality team identified a contingency plan. It recommended modifying the
MAF Quality Improvement Program (QIP) survey, planned for fiscal year 1998, to determine
whether, with additional information, it would be possible to target particular housing units that
are prone to misses or duplication. Unfortunately, this plan was subject to serious timing
conflicts. In the contingency plan, the QIP survey results would be used to define a new
targeting program for fiscal year 1999. However, the bureau needed to make its fiscal year 1999
funding requests before the survey results would be available, and before the new program could
be designed.

Based on the redesigned program, the team recommended dropping targeted field checks and
ending early local submission of address lists through the Program for Address List
Supplementation (PALS). Some of the original activities, such as linking postal and 1990 lists
to TIGER, may be useful. However, the team did not reassess the full program in light of the
new operations to determine if some original activities should or could be streamlined to further
offset costs or improve address listing. For example, the team did not assess whether the
clerical, office-based resolution of addresses that are difficult to match to TIGER, a program
designed to accompany targeted field canvassing, would still be cost-effective in light of the 100
percent field canvass.

Local Review of MAF May Not Improve Quality
and Could Be Counterproductive and Costly

The bureau’s goal is to develop a high-quality MAF to help ensure the most accurate census
count possible. At the same time, it is recognized that the incentive for local governments is to
add as many addresses to the MAF as possible to potentially maximize their counts.
Unfortunately, this inherent conflict makes it more difficult for the bureau to achieve its
accuracy objectives while concurrently satisfying local officials. Moreover, if program
participation or intensity is high and leads to a larger-than-anticipated LUCA program, costs
could rise beyond the amount allocated in the reengineered MAF budget.

We found that the quality team concluded that a 100 percent block canvass is the best proven
method to ensure reaching the stated quality goal. It also concluded that using local government

                                                6
2000 Decennial Census Address-Building Program                                 Final Audit Report
May Become More Complex, Costly, and Counterproductive                                March 1998


data is not necessarily a reliable coverage improvement method for MAF building. This
conclusion was based on the evidence from the first phase of local input, PALS, and from
limited test implementations of the second phase, LUCA, indicating that:

       !       Many localities do not have usable data files of addresses;

       !       Localities that have such data files generally do not have one master source,
               making the files difficult to use;

       !       Local files contain addresses (e.g., vacant lots or commercial structures) that do
               not meet census definitions and are therefore essentially erroneous; and

       !       The MAF generally is more complete than local address files.

The bureau began the MAF-building program premised on using partners’ lists, with little or no
data about their existence, availability, quality, or format. Consequently, as noted, four years
into the process, bureau analysts found this program to be much more complicated, time-
consuming, and error-prone than they had envisioned.

One illustration of the magnitude of these problems involved a 5 percent sample from about
6,000 addresses, submitted during PALS by a large jurisdiction, that Census did not have in the
MAF. During this field check, bureau staff found that most of the 300 supposedly residential
addresses were vacant lots, and 10 were commercial buildings. At the end of the sample field
check, the yield was 6 legitimate additions out of 300, or 2 percent. In other words, had the
jurisdiction’s list been used without verification, Census would have included 294 addresses in
error because they did not represent existing housing units. One reason the bureau identified for
the extraordinarily high rate of errors was that the local engineer’s office retained addresses on
the local list, even if a housing unit or other structure no longer existed.

If, as some evidence suggests, local governments possess source data that are less accurate than
the MAF itself, then problems of local input could persist whether locals are providing lists as in
PALS, or comparing lists as in LUCA. For example, in the 1995 Census Test evaluation of
LUCA and the MAF, bureau analysts concluded that local review did improve the coverage of
the precensus MAF by identifying valid housing unit additions and deletions. However, to
distinguish the valid changes from the erroneous, the bureau field staff verified every local
address submission. Bureau evaluations demonstrated that had the bureau accepted all local
address information without verification, the number of overall MAF errors would have
increased.

Despite this evidence that local lists introduce more erroneous addresses than accurate addresses,
the partnership team identified the percentage of local governments participating in the MAF
review as an indicator of whether the program is meeting its objectives of a reviewable and
reviewed MAF. The partnership team recommended that local review of the MAF begin much
earlier than planned to allow for multiple interactive reviews and that the planned technical
support and assistance to localities be increased. The team cited as one advantage of the

                                                 7
2000 Decennial Census Address-Building Program                                 Final Audit Report
May Become More Complex, Costly, and Counterproductive                                March 1998


proposed changes that they demonstrate the bureau’s willingness to work with local
governments. Conversely, the team identified as risks associated with these changes (1) the
delay in completing MAF building related to stress on existing computer and human resource
capacity and (2) the difficulty in determining the level and timing of local participation for
planning and resource allocation.

Depending on the level of effort provided by bureau and local government participants, these
risks could be realized as a potential enormous resource drain for which the bureau is not
prepared. For example, local officials may require detailed geographic assistance to conduct
reviews consistent with MAF and TIGER requirements, and/or technical assistance to match and
unduplicate multiple lists using computer software. However, the current partnership program
infrastructure calls for bureau staff whose primary skills are in public relations, not technical
support. Further, according to bureau officials, the number of senior knowledgeable staff in
both headquarters and the regions that could provide specialized assistance to local governments
is limited.

In addition, the bureau may not have fully captured the cost growth associated with proposed
changes. For example, in the final stages of the BPR, the partnership team and its local advisors
were proposing a more intense, interactive LUCA approach that requires a greater investment of
bureau personnel and equipment. However, the accompanying revised cost model for local
review was produced by taking the earlier cost estimates--for a low-intensity, one-time review of
the MAF by 25 percent of local governments in fiscal year 1999--and doubling the sum.

Because bureau managers have been promoting partnerships and assuring local officials that they
will play a key role in developing the MAF, high expectations may exist. Given that the cost
model does not include proposed changes and the absence of redesign details, current cost
estimates are likely to increase. However, it is not clear how the MAF’s cost could rise much
more. Senior managers have established for the decennial census a $4 billion ceiling, from
which the $108.7 million request already deviates, and which other program areas are struggling
to meet. Further, the bureau has not yet decided how it will balance achieving accuracy and
satisfying local officials within existing or even proposed funding constraints. This inherent
conflict may be exacerbated by using the percentage of governments participating in the local
reviews as a measure of MAF performance.

The bureau intends to combine local address verification with its 100 percent block canvass,
which clearly is the most efficient approach to checking on local information. However, if
participation rates are high, the extent and timing of interactions unpredictable, and bureau
resources limited, it may not be feasible for the bureau to use the canvassing operation to verify
local information. Until the planned interactive exchange between the bureau and up to 39,000
local governments is developed in detail, time and resource requirements cannot be accurately
determined. Given the scarcity of funds and the potential enormity of the task, this ambiguity
could require the bureau to either request even more funding increases or simply accept local
data without verification.




                                                 8
2000 Decennial Census Address-Building Program                                  Final Audit Report
May Become More Complex, Costly, and Counterproductive                                 March 1998


CONCLUSIONS

We recognize that the bureau is legally required to provide local governments with the
opportunity to review their respective portions of the MAF and that such partnerships can be a
helpful way for the bureau to foster local cooperation. However, in any census, the bureau’s
goal of an accurate address list creates an inevitable tension with local officials’ desire for as
high a count as possible. Use of a more substantive measure, such as cost-effectiveness or the
percentage of valid additions or deletions, could mitigate the conflict while explicitly
acknowledging the role of local lists.

The bureau’s emphasis on partnerships throughout decennial planning, as well as the outcome of
the BPR, demonstrates that for Census 2000, the bureau is working to satisfy local officials.
Further, given bureau communications to date and local involvement in the BPR, local officials
expect to have an interactive exchange of address lists and increased technical support from the
bureau. Finally, if increasing the percent of local participation continues to be an internal bureau
performance measure, then the projected participation rates may grow significantly, perhaps
beyond current projections. The inherent risk is striking the right balance among MAF
accuracy, cost containment, and local involvement. Clearly, accuracy must take precedence
among the three, given the MAF’s centrality to the census.

However, if accuracy and local involvement take equal precedence over cost containment, then
costs may spiral upward, due to the complexity of reconciling multiple lists and verifying
discrepancies for thousands of local governments--especially if a 100 percent canvass does not
occur. On the other hand, if cost containment and local involvement take precedence over
accuracy, then quality is likely to suffer. For these reasons, the bureau must move forward with
MAF refinements, keeping in mind accuracy, cost, schedule, and local communities’
perceptions, and communicate the results to local partners soon.

The risk to the program is clearly diminished if a 100 percent canvass is conducted, because that
operation can “clean up” any deficiencies, if it is the last field operation before the census.
However, since the battery of initial operations was designed to preclude extensive field work,
we question the need to continue existing efforts that were designed in tandem with targeted
canvassing, in addition to expanding local participation and conducting a 100 percent canvass.
Consequently, we believe that possible savings from curtailing earlier MAF-building operations
or plans to expand local review may partially offset the funding increase requested for
canvassing.

RECOMMENDATIONS

We recommend that the Acting Director of the Census Bureau take the necessary actions to:

1.     Conduct a review of initial local address updates submitted through the reengineered
       MAF-building program to ascertain the cost-effectiveness of local address data in the
       MAF, including the (a) human resources required, (b) effects of not verifying local
       changes to the list, and (c) cost of verifying local changes.

                                                 9
2000 Decennial Census Address-Building Program                                   Final Audit Report
May Become More Complex, Costly, and Counterproductive                                  March 1998


2.     Re-examine components of MAF building initially designed to obviate the need for field
       work, to determine whether savings (of funding, staff, and time) are possible to partially
       offset the costs of the new canvassing operation.

3.     Adjust the MAF program accordingly and, as appropriate, communicate changes and
       justification for changes to local partners as soon as possible.

AGENCY RESPONSE AND OIG COMMENTS

The Census Bureau generally agreed with our recommendations. In addition, the bureau
offered, for clarification, information related to specific points in the report.

1. The Census Bureau noted that targeted field checks in areas with city-style addresses were
included in initial MAF-building plans. The bureau is concerned that the introduction to the
OIG report could be misconstrued to imply that targeted field checks were introduced into
planning after most of the hands-on experience with the U.S. Postal Service’s Delivery Sequence
File and local address lists.

       OIG Response

       We have clarified the wording of the report’s introduction to preclude such
       misinterpretations.

2. The Census Bureau contends that the BPR’s quality team did not intend to indict the use of
local government data; rather, they found that having the bureau conduct a computer match of
independent local lists and the MAF through PALS would not improve MAF coverage because
local lists were not maintained for the purpose of preparing mailing lists. Based on this analysis,
the bureau ended the PALS program.

       OIG Response

       As described in the report, the OIG found that the BPR’s quality team examined results
       both from LUCA tests and PALS in conducting its analysis. Furthermore, the team
       identified problems that reached beyond the formats of lists that were submitted during
       PALS. The team found that the MAF is generally more complete and accurate than local
       address files and that local files, as used in both PALS and LUCA, introduce erroneous
       addresses.

       At the heart of this issue is the fact that the bureau began the MAF-building program
       premised on using partners’ lists, with little or no data about their existence, availability,
       quality, or format. It is because the bureau is unable to resolve problems with lower-
       than-assumed accuracy in local address files and in the Postal Service’s Delivery
       Sequence File that a 100 percent field canvass operation becomes necessary. We are
       concerned that the prioritization of local participation above MAF accuracy could



                                                 10
2000 Decennial Census Address-Building Program                                Final Audit Report
May Become More Complex, Costly, and Counterproductive                               March 1998


       jeopardize the reengineered MAF-building schedule and lead to increased costs and
       complexity in the program.

3. The Census Bureau contends that the BPR’s quality team concluded that a revised LUCA
program would avoid many of the problems that were associated with PALS. LUCA would not
encounter the shortcomings experienced in PALS because the bureau will not bear any costs of
matching and unduplicating lists in LUCA, and because LUCA places the burden on
participating local governments to provide address additions and revisions on the bureau’s
address list in the context of what already appears there.

       OIG Response

       We agree that LUCA is not vulnerable to all of the problems experienced in PALS.
       However, whether local partners are submitting independent lists as in PALS or
       comparing lists and then offering revisions as in LUCA, problems of unreliable source
       data persist. Because the MAF is generally more complete and accurate than local
       address files, and because local files contain erroneous addresses, we believe that the
       bureau will continue to face quality concerns in processing local governments’ additions
       and revisions to the MAF during LUCA.

4. The Census Bureau recognizes that current and planned staff may not have the computer
skills to provide technical support to local governments, and has therefore arranged for a
technically qualified contractor to provide technical assistance to local governments.

       OIG Response

       We commend the bureau for the measures it has taken to reduce demands for bureau staff
       to provide technical support to local governments during LUCA.

                                             *****

Our comments on the bureau’s responses to our recommendations follow.

Recommendation #1: Conduct a review of initial local address updates submitted through the
reengineered MAF-building program to ascertain the cost-effectiveness of local address data in
the MAF, including the (a) human resources required, (b) effects of not verifying local changes
to the list, and (c) cost of verifying local changes.

The Census Bureau generally agreed, advising that it will review initial address list corrections
and additions provided through the reengineered MAF-building process. The bureau will assess
the quality of the submissions along with associated costs and demands on staff resources.
However, the bureau believes that because of highly localized and highly variable local address
information, it will not be able to make nationwide determinations about local participation
based on this data.



                                               11
2000 Decennial Census Address-Building Program                                 Final Audit Report
May Become More Complex, Costly, and Counterproductive                                March 1998


       OIG Response

       We commend the bureau for the actions it is taking to conduct quantitative analysis on
       the costs and quality of reengineered address list reviews. Even if the resulting
       information does not allow for nationwide analysis about the LUCA program, we suggest
       that the bureau assess whether the data at hand will allow for targeted or localized
       determinations about LUCA operations.

Recommendation #2: Re-examine components of MAF building initially designed to obviate the
need for field work, to determine whether savings (of funding, staff, and time) are possible to
partially offset the costs of the new canvassing operation.

The Census Bureau generally agreed, advising that it will assess all components of the MAF-
building program and seek out cost-savings opportunities. To this end, the bureau has
(a) dropped plans to conduct Targeted Canvassing and Targeted Multi-Unit Checks in fiscal year
1998, (b) eliminated performance measures related to the percent of local participation, and
(c) reviewed the process for using the U.S. Postal Service’s Delivery Sequence File to identify
areas where TIGER updates are needed. The bureau has found the latter operation to be highly
successful and believes it is improving automated address geocoding capabilities.

       OIG Response

       We believe that dropping Targeted Canvassing and Targeted Multi-Unit Checks and
       eliminating performance measures related to the percent of local participation are
       necessary steps in improving the efficiency, accuracy, and cost-effectiveness of the
       MAF-building process. We look forward to receiving updates as the bureau reassesses
       additional MAF-building components in light of plans for 100 percent canvassing.

Recommendation #3: Adjust the MAF program accordingly and, as appropriate, communicate
changes and justification for changes to local partners as soon as possible.

The Census Bureau generally agreed, advising that it will refine the address list review program
and inform local governments of the most productive approaches to participation. The bureau
will redirect the emphasis of the local address list review program to allow local governments to
focus their attention on (a) blocks in which counts of addresses differ on bureau lists and local
lists, (b) blocks that have had rapid growth, (c) blocks that are in transition between commercial
and residential use or between single-family and multiple-family occupancy, and (d) blocks
located along jurisdictional boundaries.

       OIG Response

       We commend the bureau for taking steps to inform local partners of effective strategies
       to target their participation in address list review.




                                                12
